     Department of Homeland Security

     ��������������������������



   Major Management and Performance Challenges 

    Facing the Department of Homeland Security 





OIG-14-17                            December 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                    DEC 11 2013



MEMORANDUM FOR: 	            The Honorable Rand Beers
                             Acting Secretary

FROM:        	               Charles K. Edwards   

                             Deputy Inspector General

SUBJECT: 	                   Major Management and Performance Challenges
                             Facing the Department of Homeland Security

Attached for your information is our annual report, Major Management and
Performance Challenges Facing the Department of Homeland Security, for inclusion in
the Department of Homeland Security 2013 Annual Financial Report.
Please call me with any questions, or your staff may contact Anne L. Richards, Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


  Major Management and Performance Challenges 

                  Facing the 

        Department of Homeland Security 


The attached report presents our fiscal year (FY) 2013 assessment of the major
management and performance challenges facing the Department of Homeland Security
(DHS). As required by the Reports Consolidation Act of 2000 (Public Law 106-531), we
update our assessment of management challenges annually. As stipulated, the report
summarizes what the Office of Inspector General (OIG) considers to be the most serious
management and performance challenges facing the agency and briefly assesses the
agency’s progress in addressing those challenges.

We have identified major challenges that affect the Department as a whole, as well as
every Component. Some of the most persistent challenges arise from the effort to
combine and coordinate diverse legacy agencies into a single, cohesive organization
capable of fulfilling a broad, vital, and complex mission. DHS must continually seek to
integrate management operations under an authoritative governing structure capable
of effectively overseeing and guiding acquisitions, financial systems and reporting,
information technology (IT) assets, and cybersecurity. In addition to these challenges,
DHS’ mission to protect the Nation from domestic and international threats and respond
to natural and manmade disasters is challenged by the unpredictable nature of these
hazards. Thus, DHS must overcome the challenges inherent to coalescing into “One
DHS,” as well as those created by factors over which it has little control, but must
nevertheless confront to protect our transportation systems and borders and prepare
for and recover from threats and disasters.

This year, we are reporting the Department’s major challenges in the following areas:
       DHS Operations Integration 

       Acquisition Management

       Financial Management 

       IT Management and Cybersecurity 

       Transportation Security 

       Border Security 

       Grants Management 

       Employee Accountability and Integrity

       Infrastructure Protection





www.oig.dhs.gov                                 1                                       OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



                          Background

A secure homeland is envisioned as a Nation that is safely protected from terrorism, as
well as other manmade and natural hazards, but is also able to respond resiliently if
necessary. DHS’ FY 2013 budget, including supplemental funding for Hurricane Sandy,
was about $72 billion. In its February 2010 report to Congress, Quadrennial Homeland
Security Review Report: A Strategic Framework for a Secure Homeland, the Department
identified five homeland security missions:

  1.   Prevent terrorism and enhance security;
  2.   Secure and manage our borders;
  3.   Enforce and administer our immigration laws;
  4.   Safeguard and secure cyberspace; and
  5.   Ensure resilience to disasters.

These missions and their associated goals and objectives specify measures to prevent,
protect, respond and recover, build in security to ensure resilience, and facilitate lawful
international trade and travel. To mature and strengthen homeland security, the
Department has taken significant steps to create a unified and integrated organization
that will enhance its performance by focusing on accountability, efficiency,
transparency, and leadership development.


DHS Operations Integration
Since its formation in November 2002, DHS has struggled to become fully integrated.
With 22 Components and a range of missions, cooperation and coordination continue to
be a challenge. The Department’s structure sometimes leads to “stovepiping”—
Components operating independently and management often not cooperating and
sharing information to benefit “One DHS.” In 2007, the Secretary affirmed the need for
increased cooperation and information-sharing across all DHS Components. Yet, audits
conducted in 2012 and 2013 by both OIG and the U.S. Government Accountability Office
(GAO) showed that joint requirements development is a persistent challenge for the
Department.

FY 2013 Observations
During our recent audits, we identified several programs in which there was little or no
cross-component coordination and communication and weak department-level
authority. These led to cost inefficiencies and ineffective program management.

www.oig.dhs.gov                                  2                                            OIG-14-17
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Therefore, we made recommendations to enhance collaboration to improve both
efficiency and effectiveness.

During an audit of U.S. Customs and Border Protection’s (CBP) H-60 helicopter program,
we noted that increased cooperation between CBP and the United States Coast Guard
(USCG) in managing aviation assets would reduce redundancies and potentially save
millions of dollars. Our audit showed that CBP did not properly oversee and manage the
acquisition, conversion, and modification of its H-60 helicopters, which affected the
cost-effectiveness and timely delivery of the converted and modified H-60s. If CBP were
to complete the conversions and modifications at a USCG facility, it would save about
$126 million and H-60s would fly 7 years sooner. We made recommendations to
improve the Department’s management and oversight of its aviation assets, as well as
CBP’s aviation acquisitions and its H-60 program. The Department disagreed with the
potential cost savings and is conducting a study to help determine the most cost-
effective approach.

In our audit of CBP’s and U.S. Immigration and Customs Enforcement’s (ICE) efforts to
monitor and detect illegal cross-border tunnels, we reported that although CBP is
creating a program to address capability gaps in countering the cross-border tunnel
threat, it has not demonstrated how its detection strategy will consider ICE’s needs.
Without taking into account both Components’ needs, the Department risks not being
able to disrupt criminal organizations that engage in cross-border smuggling. Our
recommendations were designed to improve consideration of the needs of both CBP
and ICE and improve DHS’ coordination and oversight of counter-tunnel efforts.

In our audit of interoperable communications, we determined that DHS did not
establish an effective governing structure with the authority and responsibility to
oversee achievement of department-wide, interoperable radio communications. Thus,
the Department had limited interoperability policies and procedures, and Component
personnel may encounter limitations on communicating with each other. Until the
Department develops an effective governing structure and makes a concerted effort to
attain interoperability, progress will remain limited. We made two recommendations to
improve DHS’ oversight of radio communications.

Other audits also showed that DHS could better integrate its program management
through enhanced coordination and communication among Components and stronger
department-level governance. Overcoming these challenges is critical to improving
effectiveness and efficiency and preventing waste and abuse.




www.oig.dhs.gov                               3                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Management Progress and Next Steps
In September 2012, GAO reported that DHS had made progress addressing management
challenges and that senior officials had demonstrated commitment to addressing them.
According to DHS, it made strides in strengthening and integrating its management by
establishing common policies, procedures, and systems for some management
functions. In addition, the Department has taken steps to standardize operating
guidelines, policies, structures, and program oversight; and to integrate data from
disparate sources for timely and reliable dissemination of information.

DHS needs to continue the progress it has made in integrating its management
functions, as well as take additional actions to further and more effectively integrate
across all Components. For example, DHS should continue to implement Integrated
Investment Life Cycle Management (IILCM), a transformational concept that integrates
all phases of the $60 billion budget and investment management process. IILCM
synchronizes Component coordination and investments and integrates decision making
and data through business intelligence. By providing critical linkages among strategy,
capabilities and requirements analysis, programming and budgeting, and investment
oversight, IILCM will shift the paradigm from “budget driving strategy” to “strategy
driving budget.” Once fully operational, IILCM will allow senior-level decision makers to
prioritize, align and measure the progress of investments against mission needs.
Engaging in integration efforts such as IILCM is crucial to achieving the Department’s
mission and truly becoming “One DHS.”



Acquisition Management
Efficient and effective acquisition management that complies with Federal regulations,
policies, and procedures is critical to preventing waste and abuse and to ensuring that
goods and services are procured in a timely manner and at a reasonable cost. The
Department continues to be challenged by the complexity and breadth of its
acquisitions. The FY 2013 Major Acquisition Oversight List contains 123 programs, 88 of
which are Level 1 or Level 2 programs (those with lifecycle costs estimated at $300
million or above or having special departmental interest). Although DHS has established
processes and entities to manage acquisitions, it continues to face challenges in its
ability to properly coordinate and provide effective oversight of the myriad of
acquisitions planned and undertaken by its Components.




www.oig.dhs.gov                                 4                                           OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


FY 2013 Observations
Several audits conducted in FY 2013 illustrate that DHS continues to face challenges in
ensuring compliance with its acquisition-related policies and procedures; thorough
acquisition planning, including lifecycle management and deployment strategies; and
coordination among Components to ensure cost-efficient acquisitions that meet
program needs.

For example, DHS has 62 H-60 helicopters operated by CBP and the USCG, both of which
are converting them to add about 15 years of operational life. Through an audit of the
H-60 program, we determined that DHS did not properly oversee CBP’s acquisition of its
H-60s. Although the Department had processes and procedures to govern its aviation
assets and provide acquisition oversight, these efforts did not fully coordinate the
acquisition, conversion, and modification of aviation assets, and did not control
acquisition costs, schedules, or performance. CBP did not take into account guidance
from the DHS Office of the Chief Procurement Officer (OCPO) in its H-60 acquisition
planning. In addition, the DHS Office of Program Accountability and Risk Management
(PARM) did not conduct a complete review of CBP’s H-60 program because the
Department did not ensure that CBP followed departmental acquisition guidance and
properly participated in the Acquisition Review Board (ARB) process or coordinated with
the ARB.

In an assessment of the Transportation Security Administration’s (TSA) deployment and
use of advanced imaging technology (AIT) at airports, we determined that the
Component did not develop a comprehensive deployment strategy. This occurred
because TSA did not have a policy or process requiring program offices to prepare
strategic acquisition or deployment plans for new technology that aligned with the
overall goals of the Passenger Screening Program. Without documented, approved,
comprehensive plans and accurate data on the use of AIT, TSA continued to screen the
majority of passengers with walkthrough metal detectors, potentially reducing the
technology’s security benefits, and possibly inefficiently using resources to purchase and
deploy underused AIT units. As a result, TSA potentially reduced AIT’s security benefits
and may have inefficiently used resources to purchase and deploy the units.

TSA also needs to improve its screening equipment inventory management plans and
procedures at its Logistics Center. Specifically, the Component stored unusable or
obsolete equipment, did not maintain appropriate safety stock levels, did not have a
process to systematically deploy equipment, and did not use all storage space. For
example, in 2007, TSA awarded contracts to acquire automated explosive detection
systems for baggage screening at airport checkpoints. As of May 2012, TSA had 12
automated explosive detection systems in its warehouse, which, according to one TSA

www.oig.dhs.gov                                 5                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


official, the Component did not plan to deploy. Storing screening equipment for
extended periods in warehouses may result in millions of dollars worth of equipment
becoming obsolete or unusable. As a result, TSA may be losing the utility of aging
equipment and may be able to put the funds used to lease two warehouses to better
use.

In our audit of CBP’s efforts to acquire cross-border tunnel technology, we noted that
the Department has ultimate responsibility for approving CBP’s program, allocating
resources, and making decisions to counter the tunnel threat.

In September 2012, GAO reported that although DHS had initiated efforts to address the
Department's acquisition management challenges, most of its major acquisition
programs continue to cost more than expected, take longer to deploy than planned, or
deliver less capability than promised. GAO identified 42 DHS programs that experienced
cost growth, schedule slips, or both, with 16 of the programs' costs increasing from a
total of $19.7 billion in 2008 to $52.2 billion in 2011— an aggregate increase of 166
percent. GAO concluded that DHS recognized the need to implement its acquisition
policy more consistently, but that significant work remained. GAO recommended that
DHS modify acquisition policy to better reflect key program and portfolio management
practices and ensure acquisition programs fully comply with DHS acquisition policy. DHS
agreed and, in September 2012, according to officials, it was in the process of revising its
policy to more fully reflect key program management practices.

Management Progress and Next Steps
The Department has made progress in its acquisition oversight processes and controls by
instituting a life cycle framework to provide acquisition management, support, review,
and approval throughout the Department. To strengthen department-wide program
management, PARM was created in 2011 and modeled after best practices in the
private sector. It continues to provide centralized oversight for all major acquisition
programs. Since PARM was established, its effective oversight has resulted in 136 ARBs,
249 Acquisition Decision Memoranda, 3 cancelled major acquisition programs, 8 paused
programs, and the removal of program managers when necessary.

The enhanced effectiveness of acquisition oversight is intrinsically linked to the issuance
of Management Directive (MD 102-01) and the accompanying Acquisition Instruction
Guidebook (102-01-001), which address many previously identified issues related to
acquisition management. According to the Department, PARM is revising MD 102-01 to
strengthen acquisition policy implementation instructions and guidebooks by establishing
clearer governance requirements and processes for acquisition program management.


www.oig.dhs.gov                                  6                                        OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


MD 102-01 has been institutionalized and is recognized by all Component Executives as
the standard acquisition policy roadmap to manage their programs. The ARB has a
broad span-of-control and has authorized low risk/high impact programs to proceed to
the next phase. The ARB has institutionalized an effective Component Acquisition
Executive structure as the single point of accountability for Component programs and
also guides managers of major investments through the acquisition governance process.

In the procurement area, the Department has also made some improvements in
awarding and managing smaller, “other than full and open competition” contracts. Our
review of 40 files related to FY 2012 contracts with a reported value of more than $174
million showed that, compared with previous reviews of noncompetitive contracts
awarded during FYs 2008 through 2011, the Department continued to improve its
management oversight of acquisition personnel’s compliance with policies and
procedures. However, these personnel did not always document their consideration of
vendors’ past performance when researching background on eligible contractors.

DHS reported that PARM has undertaken various initiatives over the last 2 years to
improve decision making and provide better insight on the health of the 123 programs
on the Major Acquisition Oversight List. For example, PARM developed and
implemented the Quarterly Program Accountability Report — a comprehensive, high-
level analysis of programs’ vital signs that is provided to DHS leadership, Component
Acquisition Executives, and program managers.

Going forward, PARM and the ARB should ensure that program managers have
completed and clearly documented all acquisition life cycle processes, including fully
developing program life cycle cost estimates. The ARB must provide a consistent,
department-wide method, using a limited set of key acquisition documents, to evaluate
Components’ acquisition status and progress at programs’ key decision points. By fully
implementing the Department’s processes and procedures under the appropriate
authority level and review, PARM will begin to provide more effective oversight by
identifying challenges and controlling cost, schedule, and performance within the
Department’s acquisition programs.

To improve its acquisition of technologies to detect cross-border tunnels, the Office of
Border Patrol determined that it needed to develop a Tunnel Detection and Technology
Program to provide the authority and funding CBP needs to develop and acquire
technologies. To guide program development, CBP formed an Integrated Product Team,
which includes relevant stakeholders and will draft the acquisition planning documents
that CBP and DHS require to create a program. According to DHS, CBP is currently in the
initial stages of planning and program development. As part of the acquisition process,
when the program has sufficient planning to progress in the acquisition lifecycle, it will


www.oig.dhs.gov                                 7                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


come before the acquisition review board for Acquisition Decision Event approval in
accordance with MD 102-01.



Financial Management
The Federal Government has a responsibility to be an effective steward of taxpayer
dollars. Sound financial practices and related management operations, financial IT
systems, and effective internal controls are essential to providing reliable, timely
financial information to support management decision-making necessary to achieve
DHS’ mission. Congress and the public must be confident that DHS is properly managing
its finances to minimize inefficient and wasteful spending, make informed decisions to
manage government programs, and implement its policies. An effective internal control
structure is integral to an organization’s management and provides a framework for
effective and efficient operations, reliable financial reporting, and compliance with
applicable laws and regulations.

FY 2013 Observations
DHS obtained an unmodified (clean) opinion on all financial statements in FY 2013, a
significant accomplishment. Achieving this opinion took considerable manual effort to
overcome deficiencies in internal control and a lack of financial IT systems functionality.
DHS now has a solid foundation with a full set of audited financial statements; it must
now focus on the factors that may jeopardize the sustainability of the financial
statement opinion.

In FY 2012, the independent auditors identified five material weaknesses in internal
control, which were reduced to four material weaknesses in FY 2013. The four FY 2013
material weaknesses were in financial reporting; IT controls and financial systems
functionality; property, plant, and equipment; and budgetary accounting. Management
also reported the same four material weaknesses in the Secretary’s Assurance
Statement, as required by the Office of Management and Budget’s (OMB) Circular
A-123, Management’s Responsibility for Internal Control. The Department received an
adverse opinion on internal control over financial reporting because of the four material
weaknesses.

In FY 2012, the USCG, ICE, and TSA contributed to a material weakness in financial
reporting; this material weakness was repeated in FY 2013. Although some findings
reported in FY 2012 were corrected, other findings at the USCG and ICE remained in FY
2013. Also in FY 2013, new findings in financial reporting were identified at the


www.oig.dhs.gov                                  8                                        OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Management Directorate (MGMT), the National Protection and Programs Directorate
(NPPD), United States Secret Service (USSS), and Office of Financial Management (OFM).
As in previous years, the auditors reported that the USCG does not have properly
designed, implemented, and effective policies, procedures, and controls surrounding its
financial reporting process. The USCG uses three general ledgers with significant
functional limitations that affect its ability to address internal control weaknesses.

In recent years, MGMT and NPPD have assumed more responsibilities for financial
management functions to manage their operations and budgets. However, the
directorates have not fully designed internal controls to ensure effective monitoring of
decentralized operations, and ensure adequate communication with the service
provider. Furthermore, they have not fully established a financial management
infrastructure, including defined roles and responsibilities that ensure consistently
reliable, accurate, and timely reporting for all significant processes. ICE made significant
progress addressing deficiencies reported in FY 2012, but in FY 2013, did not fully
develop its policies and procedures and its internal controls over financial reporting. The
USSS and OFM had several controls that were not operating effectively, which resulted
in errors and required adjustments to the financial statements.

A material weakness in IT controls and systems functionality remained in FY 2013.
Although 45 percent of the prior-year findings in this area were closed in FY 2013, new
findings were identified at all DHS components, with CBP having the greatest number of
new findings. The auditors continued to note that many key DHS financial systems are
not compliant with Federal financial management system requirements, as defined in
the Federal Financial Management Improvement Act of 1996 and OMB Circular A-127,
Financial Management Systems (Revised). Limitations in financial systems functionality
add substantially to the Department’s challenge in addressing systemic internal control
weaknesses, and limit the Department’s ability to leverage IT systems to process and
report financial data efficiently and effectively.

A material weakness in property, plant, and equipment was also repeated in FY 2013.
DHS’ capital assets consist of items such as property, plant, and equipment (PP&E)
operating materials, as well as supplies such as the USCG’s boats and vessels, TSA’s
passenger and baggage screening equipment, and CBP’s equipment for patrolling U.S.
borders. The USCG maintains approximately 50 percent of DHS’ PP&E. In FY 2013, the
Component completed several phases of a multiyear remediation plan aimed at
producing a full set of auditable financial statements by addressing process and control
deficiencies related to its $7.9 billion net worth of PP&E assets. The USCG did not
complete some of the remediation efforts until late in FY 2013 and has ongoing
remediation activities scheduled for FY 2014, which include plans to fully implement
policies and procedures for personal property, construction in process, real property,


www.oig.dhs.gov                                  9                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


internal-use software, buildings, leasehold improvements, and inventory. The auditors
also noted that CBP does not consistently adhere to policies and procedures to properly
account for asset purchases, construction, depreciation, or disposal of assets in a timely
manner.

The auditors identified a material weakness in budgetary accounting again in FY 2013.
DHS has numerous sources and types of budget authority, including annual, multiyear,
no-year, and permanent and indefinite appropriations, as well as several revolving,
special, and trust funds. Timely and accurate accounting for budgetary transactions is
essential to managing Department funds and preventing overspending. In FY 2013, the
USCG, the Federal Emergency Management Agency (FEMA), ICE, and MGMT continued
to improve their policies and procedures for budgetary accounting processes; however,
some control deficiencies reported in FY 2012 remained and new deficiencies were
identified. These included deficiencies in accounting for undelivered orders,
management review of monthly reconciliations, and in IT controls intended to prevent
the receipt of goods and services in excess of the obligation. In addition, NPPD has not
fully implemented policies and procedures for its processes to obligate and manage
funds.

In FY 2014 and beyond, DHS’ continuing challenge will be to sustain its progress in
achieving an unmodified opinion on its financial statements. The Department relies
heavily on manual processes, including internal controls, to produce auditable financial
statements; it also relies on manual data calls to its Components’ program offices to
collect cost information. DHS must use many manual processes because the current
legacy financial IT systems do not have the functionality to support implementing more
reliable IT application controls. Further remediation of existing internal control
weaknesses will likely depend on even greater use of manual processes and on a
patchwork of IT systems—perhaps leading to a more unstable financial reporting
environment. Toward the end of the financial statement audit, the Department lost a
number of key financial leadership personnel which pose a risk to maintain oversight
and management review throughout the next fiscal year.

Management Progress and Next Steps
In the past fiscal year, DHS and its senior management continued their commitment to
identifying areas for improvement, developing and monitoring corrective actions, and
establishing and maintaining effective internal controls over financial management. DHS
reduced its material weaknesses from five to four in FY 2013, and it has a plan to
eliminate all material weaknesses by FY 2016.




www.oig.dhs.gov                                10                                          OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


As reported in the past, a majority of DHS financial systems are outdated and need
modernizing. According to the Department, it has launched the Financial Systems
Modernization initiative to expand business intelligence capabilities and modernize
financial systems where needed. DHS reports that through the Financial Systems
Modernization initiative it will be able to manage its resources better, provide
enterprise-level information more quickly to support critical decision making, reduce
costs by eliminating redundant or nonconforming systems, and promote good business
practices through standardization of processes and data where possible.



IT Management and Cybersecurity
In its management of IT processes and procedures, DHS and its Components continue to
be challenged by continuity and contingency planning for mission essential functions
and operations, protecting against the risk of insider threats, and proper use of social
media. In addition, because technology is constantly evolving, protecting the
Department’s IT infrastructure through cybersecurity is an increasingly important
challenge.

FY 2013 Observations
Lessons learned from catastrophic events, such as the attacks of September 11, 2001,
Hurricane Katrina in 2005, and Hurricane Sandy in 2012, demonstrate the need to
incorporate continuity and contingency in day-to-day planning. Yet, continuity and
contingency planning continue to be a challenge for the Department partially because
the DHS Office of the Chief Information Officer (OCIO) has not prepared an IT Disaster
Recovery Plan to transition headquarters critical information systems and
communication assets to an alternate site. Additionally, OCIO did not develop a business
impact analysis to identify its mission essential functions or establish policy for the
Components to identify critical information assets and mission essential systems.
Because of these issues, all seven of the Department’s enterprise mission essential
systems reviewed appear at risk of not being able to restore essential business functions
if disrupted, or to quickly resume normal operations. Without effective IT continuity and
contingency planning, mission essential functions and operations are at risk and could
be significantly impacted in the event of a severe or catastrophic event.

Trusted insiders (DHS employees) are the greatest threat to loss, theft, or destruction of
mission critical data because their job duties or status in the organization give them
unfettered or elevated access to mission critical assets. These employees are thoroughly
familiar with weaknesses in organizational policies and procedures, as well as physical


www.oig.dhs.gov                                11                                        OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


and technical vulnerabilities in computer networks and information systems. Through
audits of insider threat risk at TSA and CBP, we determined that both Components had
made progress in addressing insider threats, but both also needed to strengthen their
programs.

Through our review of DHS’ use of social media, we also determined that because DHS
does not maintain a complete inventory of social media accounts, some employees
obtained access outside of the authorization process. In addition, not all Components
using social media have adequate guidelines or policies to prevent unauthorized or
inappropriate uses of the technologies. There is no formal mechanism for sharing
department-wide best practices for using social media platforms; therefore, DHS
stakeholders do not understand how social media could be used more effectively to
meet mission needs.

In July 2010, the Office of Management and Budget assigned DHS primary responsibility
for overseeing the Federal government-wide information security programs.
Subsequently, the National Protection and Programs Directorate Office of Cybersecurity
and Communications (CS&C) assumed additional cybersecurity responsibilities, and in
mid-2012 was reorganized in an effort to promote security, resiliency, and reliability of
the Nation’s cyber and communications infrastructure. In our audit of CS&C’s Federal
Network Resilience (FNR) division, we reported that the division has taken actions to
address its assigned responsibilities and to improve the information security posture at
government agencies. However, NPPD can make further improvements to address its
additional cybersecurity responsibilities.

Management Progress and Next Steps
OCIO has taken steps to mature IT management functions, improve IT governance, and
integrate IT infrastructure through increased oversight and authority and by reviewing
Component IT programs and acquisitions. These steps have enabled DHS to focus on
improving continuity and contingency planning, address insider threats, cybersecurity,
and use of social media.

DHS has made progress in implementing effective disaster recovery capabilities at the
Department’s two enterprise data centers. First, it established a list of disaster recovery
services that DHS Components can procure for their systems. Second, the enterprise
data centers now have disaster recovery regions that provide backup capabilities to
allow continued minimum operations in the event of a disaster. To improve in this area,
DHS should develop an IT Disaster Recovery Plan that includes a process to transition
headquarters-critical information systems and communications assets from a primary
location to an alternate location. The Department should perform a business impact

www.oig.dhs.gov                                 12                                        OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


analysis of the OCIO’s mission essential function and update the plan every 2 years,
develop policies and processes to monitor the availability of all mission essential
systems, and develop and implement a process to maintain backup data for enterprise
mission essential systems.

U.S. Citizenship and Immigration Services (USCIS), TSA, and CBP have begun to establish
collaborative Insider Threat Working Groups to develop an integrated strategy and
program to address insider threat risk. They are also beginning to incorporate insider
threat vulnerability assessments at selected airports, border locations, and offsite
offices. These Components are also checking privileged user accounts on unclassified
information systems to verify the necessity for privileged user access and determine
user rights granted to system administrators. Finally, the Components are establishing
Security Operations Centers responsible for monitoring of information systems to help
detect and respond to insider threat incidents. TSA, CBP, and USCIS can further develop
their insider threat program by implementing specific policies and procedures, a risk
management plan, and enhance existing component-wide training and awareness
programs. DHS can strengthen its situational awareness against insider threats by
centrally monitoring information systems and by augmenting current IT applications and
controls to better detect or prevent instances of unauthorized removal or transmission
of sensitive information outside of DHS networks.

DHS has steadily increased its use of various social media sites over the past 5 years. All
seven operational Components have established accounts on commonly used social
media sites, and public affairs employees have had wide success using these sites to
share information and conduct public outreach efforts. These initiatives were effectively
managed and administered by department- and component-level public affairs offices.
In addition, Component public affairs offices have implemented policies and procedures
to provide guidance to employees. However, the Department should communicate the
process to gain access to social media and establish a list of approved social media
accounts. In addition, DHS needs to complete a department-wide social media policy to
provide legal, privacy, and information security guidelines for approved uses. Finally, the
Department should require Components to develop and implement social media
policies and establish a forum to collaborate and make decisions on the use of social
media tools.

To fulfill its cybersecurity responsibilities, FNR manages the annual Federal Information
Security Management Act of 2002 (FISMA), as amended, reporting process and actively
evaluates Federal agencies’ compliance with the President’s cybersecurity initiatives.
The division also conducts information security assessments at selected agencies.
According to the Department, FNR is coordinating with OMB and through the
interagency Joint Continuous Monitoring Working Group to finalize a FISMA strategic


www.oig.dhs.gov                                 13                                          OIG-14-17
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


approach, which aligns with and provides authority for FNR’s Continuous Diagnostics
and Mitigation (CDM) program. FNR is actively engaged in a strategic planning effort
under the working title of the FISMA Transformation Project that will define a 3-year
plan to redefine the methods for developing FISMA metrics questions, data collection,
and data correlation. Furthermore, this project will look to align FISMA requirements
with emerging technologies to take full advantage of CDM and related efforts, and
develop the functional and business requirements that will be leveraged for the CDM
dashboard to meet the information needs of the current DHS stakeholders.

To improve this program, IT management should increase communication and
coordination with government agencies, which would improve the FISMA reporting
process. NPPD must also address deficiencies in maintaining and tracking the training
records of CyberScope contractor personnel and implement the required DHS baseline
configuration settings.



Transportation Security
TSA is charged with protecting the Nation's transportation systems to ensure freedom
of movement for people and commerce. For airport security, TSA uses various
technologies to screen passengers and their baggage for weapons, explosives, and other
prohibited items, as well as to prevent unauthorized access by individuals to secured
airport areas. As TSA refines its layers of security and the efficiency of its operations, it
must continue to ensure that its operations evolve to address new and changing threat
environments.

FY 2013 Observations
In carrying out its mission to provide effective and efficient security measures at
airports, TSA continues to face challenges in ensuring the efficacy of these measures and
using staff and resources efficiently.

Using covert methods, we tested whether TSA’s airport access controls and passenger
and baggage screening was effective in preventing unauthorized access to secured areas
and whether personnel complied with security requirements. We also used covert
testing to evaluate the effectiveness of TSA’s AIT units used at passenger screening
checkpoints and to determine whether Transportation Security Officers (TSO) followed
established policies and procedures for using AIT. We identified access control and
checkpoint screening vulnerabilities and made recommendations to strengthen the



www.oig.dhs.gov                                  14                                         OIG-14-17
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


effectiveness of access controls. The results of our testing are classified, but were
shared with the Department, TSA, and appropriate congressional committees.

Our audit of the Aviation Channeling Services Provider project showed that to address a
backlog in background checks of airport ID applicants, TSA temporarily allowed airports
to issue badges without the required checks. As a result, some individuals with criminal
records were issued badges. This occurred in part because, during the projects
implementation, TSA did not document a project plan, roles and responsibilities, budget
and spending, and major decisions. It also did not establish and enforce standard testing
requirements to identify problems prior to deploying the system for channeling aviation
services. TSA also did not implement a strategic plan to ensure the success of the
Screening of Passengers by Observation Techniques (SPOT) program. Specifically, it did
not assess program effectiveness, have a comprehensive training program, ensure
outreach to its partners, or have a financial plan. As a result, TSA cannot ensure that it is
screening airport passengers objectively or that the program is cost-effective; it also
cannot reasonably justify its expansion.

In our audit of TSA’s Office of Inspection, we determined that the office did not use its
staff and resources efficiently to conduct cost-effective inspections, internal reviews,
and covert testing. Criminal investigators in the office may not have met the Federal
workload requirements to receive premium pay, and they performed work that could
have been done by other personnel at a lower cost. The office also did not properly plan
its work and resource needs, track project costs, or measure performance effectively.
In its report on TSA’s monitoring of employee misconduct, GAO noted weaknesses in
verifying TSA airport staff compliance with policies and procedures for adjudicating
misconduct, recording information on adjudication decisions, tracking of time to
complete investigations and adjudications, and identifying allegations not adjudicated.

Management Progress and Next Steps
TSA has taken actions to comply with our recommendations. For example, the
Component continues to use AIT units more effectively and has developed more AIT
training for TSOs. For the Aviation Channeling Services Provider project, TSA developed
lessons learned and established a policy requiring comprehensive plans for all projects.
Additionally, to improve the SPOT program, TSA is updating its strategic plan and has
implemented a training plan for Behavior Detection Officers, which included plans to
regularly assess their performance and ensure they are used cost-effectively.

According to the Department, TSA is also taking active steps to strengthen areas
identified as needing improvement in response to GAO’s report on TSA’s monitoring of
employee misconduct. TSA concurred with GAO’s recommendations and is putting

www.oig.dhs.gov                                  15                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


measures in place to address each of these areas. For example, on August 23, 2013,
additional guidance was issued to Employee Relations Users in the Integrated Database
to ensure that all corrective and disciplinary actions are recorded in the database. This
guidance was also incorporated in the Employee Relations User Guide for the Integrated
Database. To further reiterate this guidance, the Assistant Administrator for the Office
of Security Operations and the Assistant Administrator for the Office of Human Capital
(OHC) will issue a joint memorandum to Federal Security Directors for their support and
compliance. On September 19, 2013, during the bi-monthly HRAccess conference call
for Administrative Officers/Human Resources Representatives staff members, OHC/ER
addressed the additional guidance provided.

TSA needs to continue to improve and regularly assess the efficiency and effectiveness
of its personnel and equipment, both of which are critical to protecting our Nation’s
transportation system. The Component should also further develop comprehensive
strategies and program plans aimed at using resources, including personnel, equipment,
and IT assets, as efficiently and cost-effectively as possible.



Border Security
DHS’ multi-layered effort to secure the Nation’s borders is undertaken by CBP, the
USCG, and ICE. Together, these Components seek to deter, detect, and interdict illegal
entry of people and contraband into the United States, across U.S. land borders and sea
frontiers and through our air space. In their mission to protect the Nation, these DHS
Components cannot simply sustain their current efforts, but must be prepared to face
and overcome numerous, different border security challenges. Improvements in one
area often lead individuals and organizations to alter and create new methods to evade
security and illegally breach our borders. As long as the United States remains an
economically desirable destination to live and work, and a market for illegal drugs, these
challenges will remain. Thus, DHS, and in particular the three Components involved in
border security, cannot simply maintain the current security posture. The Department
must continually develop new and better methods, using both technology and
manpower, to interdict illegal entry into the United States by land, air, and sea.


FY 2013 Observations
Recent border security-related audits by OIG and GAO have focused primarily on CBP’s
role. Specifically, GAO and OIG noted that CBP is challenged in its ability to measure its
performance and effectiveness, its technological capability to detect illicit cross-border
tunnels, and in its use of air and marine assets.

www.oig.dhs.gov                                 16                                           OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Although in the past DHS has used the number of apprehensions on the southwest
border as an interim goal and measure, GAO testified that this interim measure provides
information on activity levels not program results and, therefore, limits DHS and
congressional oversight. According to GAO, the Office of Border Patrol, in developing
key elements of its FYs 2012 through 2016 Strategic Plan, did not identify milestones
and timeframes for developing and implementing performance goals and measures in
accordance with standard program management practices. GAO also stated that
differences in data collection methods and reporting preclude the Border Patrol from
comparing the overall effectiveness of each sector’s deployment of border security
resources.

Illicit cross-border tunnels along the southwest border are primarily used by criminals to
transport illegal drugs into the United States, and they are a significant and growing
threat to border security. In an effort to counter this threat, CBP has modified its
operations through patrols, intelligence gathering, and closing of illicit cross-border
tunnels, but it does not yet have the technological capability to detect the tunnels
routinely and accurately. To best address this capability gap, CBP needs to develop and
acquire tunnel detection technology, but it has not been able to identify existing
technology that functions effectively in its operating environment.

To facilitate their maximum effectiveness and use, CBP needs the right mix of air and
marine assets in the right places. GAO’s analysis of CBP’s Office of Air and Marine’s
(OAM) FY 2010 performance results indicated that OAM did not meet its national
performance goal to fulfill greater than 95 percent of Border Patrol air support requests
and did not provide higher rates of support in locations designated as high priority
based on threats. One high-priority Border Patrol sector had the fifth highest support
rate of all nine sectors on the southwest border. Reassessing the mix and placement of
its air and marine assets and personnel and using performance results to make informed
decisions could benefit OAM’s performance.

Management Progress and Next Steps
In response to GAO’s and OIG’s recommendations, CBP has begun to address these
challenges. However, the Component needs to continue its work.

In May 2012, CBP’s Office of Border Patrol issued the 2012-2016 Border Patrol Strategic
Plan, which emphasizes using intelligence information to establish risk relative to
threats of cross-border terrorism, drug smuggling, and illegal migration. Under the plan,
the Office of Border Patrol intends to continuously evaluate border security by analyzing
changes in risk levels against available capabilities across border locations. The Office of
Border Patrol is developing performance goals and measures that can be linked to these

www.oig.dhs.gov                                 17                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


new risk assessments and anticipates their publication by the end of 2013. Guidance
from September 2012 provides a more consistent, standardized approach for collecting
and reporting information that could be used to analyze sector performance and
identify capability gaps, allowing for more informed decisions regarding resource
deployment for our Nation’s borders.

CBP is creating a Tunnel Detection and Technology Program to address capability gaps in
countering the cross-border tunnel threat. As part of this effort, CBP is drafting the
documents required by DHS to fund, develop, and acquire tunnel detection technology.
Additionally, CBP plans to establish a Program Management Office to provide
leadership, strategy, and organization to department-wide, counter-tunnel efforts.

In transitioning to a new risk-based approach under the 2012-2016 Border Patrol
Strategic Plan, the Office of Border Patrol has begun strategic and technological
initiatives that will likely affect the type and level of OAM support and the mix and
placement of resources across locations.

In addition, CBP needs to establish milestones and time frames for developing
performance goals that define the border security or risk levels to be achieved. These
milestones and time frames could improve accountability and oversight of the agency’s
border security efforts.

Tunnel detection technology needs to address the mission needs of both CBP and the
Office of Homeland Security Investigations at ICE because they are responsible for
combating cross-border tunnels. Although the CBP Program Management Office seeks
to provide leadership, strategy, and organization to DHS tunnel threat efforts, it cannot
decide the best way to assign counter-tunnel resources outside of CBP. A
departmentally designated authority is needed to make these strategic decisions
regarding counter-tunnel policies and procedures.

Also, OAM could benefit from taking additional steps to better ensure that its mix and
placement of resources meets mission needs and addresses threats. In addition, DHS
could assess potential actions to improve coordination of air and marine activities,
better leverage existing resources, eliminate unnecessary duplication, and enhance
efficiencies.



Grants Management
DHS grants play a significant role in carrying out its mission to prevent, prepare for,
protect against, and respond to natural disasters, acts of terrorism, and other manmade

www.oig.dhs.gov                                 18                                          OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


disasters. These grants, totaling $35 billion since 2003, help State, local, and tribal
governments, and private nonprofit organizations respond to and recover from major
disasters and emergencies, such as hurricanes, floods, and terrorist attacks. Overseeing
preparedness and disaster assistance grants continues to challenge DHS because of the
varied nature of hazards, the multitude of types of recipients, and the pressure to
respond quickly.

Preparedness grants rapidly expanded after 9/11, and States and local governments
began to expect continued high levels of funding, but recent grant funding reductions
have negatively affected the ability to sustain prior grant-funded efforts. Grants
management has also frequently moved around DHS, and has resided at FEMA since
Hurricane Katrina in 2007. FEMA has not developed good measures of the grants’ effect
on overall preparedness, although Congress has repeatedly ordered development of
effective measurement systems. Additionally, following a disaster, FEMA must decide
whether to fund the repair or replacement of damaged buildings, and the wrong
decision can cost taxpayers millions of dollars. In deciding, FEMA faces challenges from
Federal, State, and local officials who may demand quick action to replace a facility
rather than repair older or obsolete structures.

FY 2013 Observations
This year, both OIG and GAO have testified before Congress on FEMA’s continuing
challenge to develop a national preparedness system that could help it prioritize
preparedness grant funding. Our 10 audits completed in FY 2013 identified areas for
both grant recipient and FEMA improvement, such as States’ homeland security
strategies; obligation of grants; reimbursement to subgrantees for expenditures; and
monitoring of subgrantees’ performance and financial management, procurements, and
property management.

We also identified a variety of problems with disaster grant management and
accounting, ineligible and unsupported costs, and noncompliance with Federal
contracting requirements. Of the 59 disaster grant audit reports we issued in FY 2012,
54 reports contained 187 recommendations resulting in potential monetary benefits of
$415.6 million. This amount included $267.9 million in questioned costs that we
recommended FEMA disallow as ineligible or unsupported, and $147.7 million in unused
funds that we recommended FEMA deobligate and put to better use. The $415.6 million
in potential monetary benefits represents 33 percent of the $1.25 billion we audited,
compared with 28 percent in FY 2011, 13 percent in FY 2010, and 15 percent in FY 2009.

In deciding whether to repair or replace a damaged building, in most instances, FEMA
uses the “50 Percent Rule,” meaning it will replace a facility if the estimated cost to

www.oig.dhs.gov                                19                                          OIG-14-17
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


repair it exceeds 50 percent of the estimated cost to replace it. Previous and ongoing
audits have disclosed serious problems with policies and procedures, including decision
calculation and review standards, training, and employee qualifications. Because of the
complexities of applying the 50 Percent Rule and a lack of adequate policies and
procedures, incorrect replacement decisions cost FEMA millions of dollars.

Management Progress and Next Steps
For preparedness grants, FEMA began requiring state and local governments receiving
homeland security funding to complete Threat and Hazard Identification and Risk
Assessments (THIRA) by December 31, 2012, and, as a part of this process, develop their
own capability requirements. In future State Preparedness reports, state officials are to
use the capability requirements they identify to assess their capabilities; FEMA will use
these reports, along with other sources, to develop the annual National Preparedness
Report. In addition, FEMA has concurred with and taken steps to implement or has
implemented almost all of our recommendations to improve the management of
homeland security grants.

FEMA recognizes the need for better administration of its disaster grant programs and is
working to address this challenge. In response to recommendations, FEMA Regional
offices are holding states, as grantees, more accountable for effective and efficient grant
management. FEMA also started to examine its own policies related to grant
management. For example, FEMA implemented a Strategic Funds Management
Initiative focused on obligating Public Assistance projects on the basis of the applicant’s
capacity, resources, and schedule to complete the work, which will free Federal funds
for more immediate needs.

FEMA also recognizes the challenges faced in applying the 50 Percent Rule. In response
to recommendations in our disaster grant audit reports, some FEMA Regional Offices
have strengthened and clarified policies related to making repair-versus-replace
decisions.

FEMA faces continued challenges in measuring the effectiveness of preparedness grant
funds. THIRA is a self-reporting tool that allows a jurisdiction to understand its threats
and hazards and factors that lead to varied impacts. This is a necessary first step to
identifying capabilities, capability targets and gaps, and to focus on specific capabilities,
but it may not address the overall state-level strategies or priorities. In addition, it may
be difficult to combine the results and determine a national level of preparedness. Until
FEMA establishes capability requirements and associated performance measures, it may
be unable to determine the resources needed to address capability gaps.


www.oig.dhs.gov                                  20                                         OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


FEMA needs to strengthen and clarify its disaster grant program policies and take steps
to ensure that they are applied consistently in the field. The Component should also
identify and help close gaps inhibiting effective grant and subgrant management. FEMA
should oversee grantees and subgrantees to ensure that they follow laws, regulations,
and policies throughout the life of the projects.

In August 2012, FEMA Administrator Fugate wrote that he agreed FEMA’s current 50
Percent Rule policy and its implementation need significant revisions, and that our audit
observations showed the need for better policy, training, and oversight. FEMA needs to
develop improved policies, procedures, preparation and review standards, and training
programs to prevent the misapplication of the 50 Percent Rule. Taking these steps
should also ensure more consistent application of the rule among the 10 FEMA Regions.



Employee Accountability and Integrity
Investigations of departmental employees range throughout the Components and are
initiated in response to allegations of wrongdoing such as smuggling, bribery, child
pornography, and theft of departmental funds or property. OIG is particularly concerned
with the smuggling of people and goods across the Nation’s borders. Smuggling
continues to be a large-scale business and remains dominated by drug trafficking
organizations that seek to systematically corrupt DHS employees to continue their
schemes. Within DHS, OIG has the primary authority for investigating allegations of
criminal misconduct by DHS employees.

FY 2013 Observations
In FY 2012, we received approximately 17,690 complaints and opened 1,030
investigations. In that same period, 132 of our cases were accepted for prosecution and
we achieved 178 convictions and 106 personnel actions. Thus far in FY 2013, we have
received 7,868 complaints and have initiated 320 investigations. Also in FY 2013, we
have had 76 cases accepted for prosecution and achieved 83 convictions and 41
personnel actions.

A sample of our 2013 casework demonstrates the wide range and scope of unlawful
misconduct in which Department employees engage. For example, in one case we
learned that a CBP employee was observed meeting with members of a known drug-
trafficking organization. Later, he made arrangements with individuals he believed to be
smugglers and allowed a vehicle driven by an undercover agent to pass through a
border patrol checkpoint without being inspected. He also met with a confidential


www.oig.dhs.gov                                21                                       OIG-14-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


informant and received an $8,000 cash bribe payment in an envelope. After we arrested
him, he resigned and pleaded guilty to one count of accepting a bribe.

Similarly, we investigated a CBP employee who was accepting bribes to allow narcotics
through his inspection lane. We had an agent pose as a narcotics smuggler and pay the
employee a series of bribes in exchange for allowing what he believed to be illegal
narcotics to enter the United States. He was found guilty of conspiracy and bribery.

This year, a USCIS employee pleaded guilty to possession of child pornography, and was
sentenced to 37 months incarceration and 120 months of supervised release. In 2010,
the employee seemingly inadvertently provided another employee with a USB thumb
drive containing child pornography, and a search of his residence yielded additional
images on his home computers. We also arrested a senior ICE law enforcement officer
who was involved in child pornography. He was sentenced to 70 months Federal
incarceration, followed by 240 months of supervised release.

Additionally, we investigated and arrested a recently retired, former USCG employee
who had stolen government-owned electrical equipment valued at approximately
$120,000 and sold it on eBay. After his arrest, he pleaded guilty of two counts of mail
fraud and was sentenced to 12 months and 1 day incarceration followed by 24 months
of supervised release. He was also ordered to pay $127,600 in restitution.

Finally, we engaged in a joint investigation with a local sheriff’s department of a Border
Patrol Agent who made a traffic stop of a vehicle driven by a woman in a remote
location and sexually assaulted her. Following the investigation, the agent resigned and
was sentenced to 96 months in State prison.

Management Progress and Next Steps
In the past year, we expanded our outreach and liaison efforts with other DHS internal
investigation offices and partnered with them in joint cases whenever feasible. Our
close working partnerships allow us to employ a two-tier strategy—we are primarily
engaged in investigations of employee criminal misconduct, while the Components
focus on investigations of administrative misconduct and preventive measures. Their
measures focus on enhanced screening of applicants, including pre-employment
polygraph examinations and more thorough background investigation after hiring. They
also provide periodic employee integrity and security briefings, which help the
workforce recognize corruption signs and dangers. So that everyone may inform us of
employee misconduct or otherwise assist us in our mission, we continued to partner
with the Department’s Office of Civil Rights and Civil Liberties in our continuing


www.oig.dhs.gov                                 22                                           OIG-14-17
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


implementation of Executive Order 13166, Improving Access to Services for Persons with
Limited English Proficiency.
The Anti-Border Corruption Act of 2010 required that, by January 4, 2013, CBP
administer applicant screening polygraph examinations for all law enforcement
applicants prior to hiring. CBP reported that this goal was met in October 2012. The Act
also requires CBP to initiate timely periodic background reinvestigations of all CBP
personnel. CBP reported that 60 percent of applicants who are polygraphed are found
to be unsuitable for employment.



Infrastructure Protection
After the 2001 terrorist attacks, the Nation developed a greater awareness that
chemical facilities could be sabotaged and materials released, stolen, or used as
weapons of mass destruction. The Federal Government has developed and
implemented programs aimed at reducing the safety risks and security risks associated
with hazardous chemicals. The Department of Homeland Security Appropriations Act of
2007 established the Chemical Facility Anti-Terrorism Standards (CFATS) program, which
allows DHS to regulate chemical facilities that may present a high-level security risk.
Within NPPD, Office of Infrastructure Protection, the Infrastructure Security Compliance
Division (ISCD) is responsible for implementing CFATS.


FY 2013 Observations
CFATS was established to improve the security of chemical facilities that present high
levels of security risk.

According to a DHS, OIG March 2013 report, CFATS program progress has been slowed
by inadequate tools, poorly executed processes, and insufficient feedback on facility
submissions. In addition, program oversight had been limited, and confusing
terminology and the absence of appropriate metrics led to misunderstandings of
program progress. ISCD struggled with a reliance on contractors and the inability to
provide employees with appropriate training. Overall efforts to implement the program
have resulted in systematic noncompliance with sound Federal Government internal
controls and fiscal stewardship, and employees perceived that their opinions have been
suppressed or met with retaliation. Although we were unable to substantiate any claims
of retaliation or suppression of nonconforming opinions, the ISCD work environment
and culture fostered this perception.



www.oig.dhs.gov                                23                                          OIG-14-17
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


In April 2013, GAO also released a report on the CFATS Program. GAO concluded that
DHS efforts to assess chemical security risk and gather feedback on facility outreach
should be strengthened. According to the pace reflected during GAO’s review, DHS will
take another 7 to 9 years to fully assess site security plans for high-risk facilities.

Management Progress and Next Steps
Despite ISCD’s challenges, the regulated community views the CFATS program as
necessary in establishing a level playing field across a diverse industry. In addition, ISCD
has begun to take steps to improve CFATS program efficiency and effectiveness. It has
developed performance metrics to monitor program performance, initiated tasks to
improve program-related tools and processes, reduced reliance on contractors,
established internal controls to ensure accountability of funds, selected permanent
leadership, and developed a strategy for seeking long-term authorization for CFATS.

DHS reported that they have taken action to address recommendations made by the
OIG, as well as GAO, concerning the CFATS program. Corrective actions were made to
address 9 of the 24 recommendations reported in the OIG’s March 2013 report, which
resulted in their closure. The remaining recommendations are considered resolved, but
will remain open, pending completion of planned corrective actions. Similarly, NPPD is
also addressing three recommendations made by GAO in its April 2013 report to better
assess risk associated with facilities that use, process, or store chemicals of interest. In
support of efforts to close recommendations, DHS has documented all processes
relating to the CFATS tiering methodology, and completed both an internal and external
peer review of that methodology.

On August 1, 2013, the President signed an Executive Order, “Improving Chemical
Facility Safety and Security,” to improve the safety and security of chemical facilities and
reduce the risks of hazardous chemicals to workers and communities. The Executive
Order directs the Federal Government, including DHS, to:

   • improve operational coordination with state and local partners;
   • enhance Federal agency coordination and information sharing;
   • modernize policies, regulations and standards; and
   • work with stakeholders to identify best practices.

Given the recent explosion in West, Texas, government reports on programmatic issues,
and budget cuts across the Federal Government, some members of Congress have
proposed cutting funding for the CFATS program. DHS needs to provide justification for
its expenditures and continue working with Congress and private industry to ensure the
long-term authorization of the CFATS program. Also, as required by the Executive Order,

www.oig.dhs.gov                                  24                                            OIG-14-17
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


DHS must work with other Federal agencies to establish and complete the requirements
of the Chemical Facility Safety and Security Working Group. Furthermore, DHS must
address the backlog of more than 3,000 facility site security plans that have yet to be
reviewed. DHS representatives will also review the CFATS risk methodology, which
affects facility tiering.




www.oig.dhs.gov                               25                                      OIG-14-17
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix A
Relevant Reports
DHS OIG reports can be found under the “Reports” tab at http://www.oig.dhs.gov/

Background

   DHS Budget-in-Brief, Fiscal Year 2014, page. 15/220.
   http://www.dhs.gov/sites/default/files/publications/MGMT/FY%202014%20BIB%20
   -%20FINAL%20-508%20Formatted%20%284%29.pdf
   DHS, Quadrennial Homeland Security Review Report: A Strategic Framework for a
   Secure Homeland, February 2010.
   http://www.dhs.gov/xlibrary/assets/qhsr_report.pdf
   Letter to The Honorable Benjamin L. Cardin, Co-Chair, Bicameral Task Force on
   Climate Change, April 17, 2013. (not published)

DHS Joint Requirements Development Challenges

   DHS-OIG, DHS’ H-60 Helicopter Programs (OIG-13-89, May 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-89_May13.pdf
   DHS-OIG, CBP’s Strategy to Address Illicit Cross-Border Tunnels (OIG-12-132, 

   September 2012). http://www.oig.dhs.gov/assets/Mgmt/2012/OIG_12­
   132_Sep12.pdf

   DHS-OIG, DHS’ Oversight of Interoperable Communications (OIG-13-06, November
   2012). http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-06_Nov12.pdf
   GAO, Continued Progress Made Improving and Integrating Management Areas, but
   More Work Remains (GAO-12-1041T, September 2012).
   http://www.gao.gov/assets/650/648629.pdf
   GAO, High-Risk Series, An Update (GAO-13-283, February 2013).
   http://www.gao.gov/assets/660/652133.pdf

Acquisition Management Challenges

   DHS-OIG, DHS’ H-60 Helicopter Programs (OIG-13-89, May 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-89_May13.pdf
   DHS-OIG, Transportation Security Administration’s Deployment and Use of Advanced 

   Imaging Technology (OIG-13-XXX, September 2013) 

   DHS-OIG, Transportation Security Administration Logistics Center – Inventory 

   Management (OIG-13-82, April 2013) 

   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-82_Apr13.pdf

www.oig.dhs.gov                             26                                      OIG-14-17
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   DHS-OIG, DHS Contracts Awarded Through Other Than Full and Open Competition
   During Fiscal Year 2012 (OIG-13-36, February 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-36_Feb13.pdf
   DHS-OIG, DHS’ Oversight of Interoperable Communications (OIG-13-06, November
   2012). http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-06_Nov12.pdf
   GAO, DHS and TSA Continue to Face Challenges Developing and Acquiring Screening
   Technologies (GAO-13-469T, May 2013).
   http://www.gao.gov/assets/660/654419.pdf

Financial Management Challenges

   DHS-OIG, Independent Auditor’s Report on DHS’ FY 2012 Financial Statements and
   Internal Control over Financial Reporting (OIG-13-20, November 2012).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-20_Nov12.pdf

IT Management and Cybersecurity Challenges

   DHS-OIG, DHS Can Take Actions to Address Its Additional Cybersecurity 

   Responsibilities (OIG-13-95, June 2013). 

   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-95_Jun13.pdf
   DHS-OIG, Transportation Security Administration Has Taken Steps To Address the
   Insider Threat But Challenges Remain (OIG-12-120, September 2012).
   http://www.oig.dhs.gov/assets/Mgmt/2012/OIGr_12-120_Sep12.pdf
   DHS-OIG, Examining Insider Threat Risk at the U.S. Citizenship and Immigration
   Services (OIG-11-33, January 2011). http://www.oig.dhs.gov/assets/Mgmt/OIG_11­
   33_Jan11.pdf
   DHS-OIG, U.S. Customs and Border Protection Has Taken Steps To Address Insider
   Threat, but Challenges Remain, (OIG-13-118, September 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-118_Sep13.pdf
   DHS-OIG, DHS Uses Social Media To Enhance Information Sharing and Mission
   Operations, But Additional Oversight and Guidance Are Needed (OIG-13-115,
   September 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-115_Sep13.pdf
   DHS-OIG, DHS Needs to Strengthen Information Technology Continuity and 

   Contingency Planning Capabilities (Redacted) (OIG-13-110, August 2013).

   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-110_Aug13.pdf

Transportation Security Challenges

   Public Law 107-71, Aviation and Transportation Security Act, November 19, 2001.
   http://www.gpo.gov/fdsys/pkg/PLAW-107publ71/pdf/PLAW-107publ71.pdf

www.oig.dhs.gov                              27                                      OIG-14-17
                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   DHS-OIG, (U) Covert Testing of Access Controls to Secured Airport Areas (OIG-12-26,
   January 2012). http://www.oig.dhs.gov/assets/Mgmt/OIG_SLP_12-26_Jan12.pdf
   DHS-OIG, TSA’s Aviation Channeling Service Provider Project (OIG-13-42, February
   2013). http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-42_Feb13.pdf
   DHS-OIG, TSA Penetration Testing of Advanced Imaging Technology (OIG-12-06,
   November 2011). http://www.oig.dhs.gov/assets/Mgmt/OIG_SLR_12-06_Nov11.pdf
   DHS-OIG, Transportation Security Administration Office of Inspection’s Efforts To
   Enhance Transportation Security (OIG-13-123, September 2013)
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-123_Sep13.pdf
   DHS-OIG, Transportation Security Administration’s Screening of Passengers by
   Observation Techniques (OIG-13-91, May 2013)
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-91_May13.pdf
   DHS-OIG, Transportation Security Administration Information Technology 

   Management Progress and Challenges (OIG-13-101, June 2012).

   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-101_Jun13.pdf
   GAO, TSA Could Strengthen Oversight of Allegations of Employee Misconduct

   (GAO-13-756, July 2013). http://www.gao.gov/assets/660/656381.pdf


Border Security Challenges

   DHS-OIG, CBP’s Strategy to Address Illicit Cross-Border Tunnels (OIG-12-132, 

   September 2012). http://www.oig.dhs.gov/assets/Mgmt/2012/OIG_12­
   132_Sep12.pdf

   GAO, Key Elements of New Strategic Plan Not Yet in Place to Inform Border

   Security Status and Resource Needs (GAO-13-25, December 2012). 

   http://www.gao.gov/assets/660/650730.pdf
   GAO, Opportunities Exist to Ensure More Effective Use of DHS’s Air and Marine
   Assets (GAO-12-518, March 2012). http://www.gao.gov/assets/590/589797.pdf
   DHS-OIG, Effectiveness of the Infrastructure Security Compliance Division’s
   Management Practices to Implement the Chemical Facility Anti-Terrorism Standards
   Program (OIG-13-55, March 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-55_Mar13.pdf

Grants Management Challenges

   DHS-OIG, Annual Report to Congress on States’ and Urban Areas’ Management of

   Homeland Security Grant Programs Fiscal Year 2012 (OIG-13-18, December 2012). 

   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-18_Dec12.pdf




www.oig.dhs.gov                              28                                      OIG-14-17
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   DHS-OIG, The State of Illinois’ Management of Urban Areas Security Initiative Grants
   Awarded During Fiscal Years 2006 Through 2008 (OIG-13-08, November 2012).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-08_Nov12.pdf
   DHS-OIG, The Commonwealth of Virginia's Management of State Homeland Security
   Program and Urban Areas Security Initiative Grants Awarded During Fiscal Years
   2008 Through 2010 (OIG-13-10, November 2012).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-10_Nov12.pdf
   DHS-OIG, The State of Rhode Island’s Management of State Homeland Security
   Program and Urban Areas Security Initiative Grants Awarded During Fiscal Years
   2008 Through 2010 (OIG-13-16, December 2012).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-16_Dec12.pdf
   DHS-OIG, Wisconsin’s Management of Homeland Security Program and Urban Areas
   Security Initiative Grants Awarded During Fiscal Years 2008 Through 2010 (OIG-13­
   33, January 2013). http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13­
   33_Jan13.pdf
    DHS-OIG, Kentucky’s Management of State Homeland Security Program and Urban
   Areas Security Initiative Grants Awarded Fiscal Years 2008-2010 (OIG-13-41,
   February 2013). http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-41_Feb13.pdf
   DHS-OIG, Connecticut’s Management of Homeland Security Program Grants
   Awarded During Fiscal Years 2008 Through 2010 (OIG-13-43, February 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-43_Feb13.pdf
   DHS-OIG, Massachusetts’ Management of Homeland Security Grant Program
   Awards for Fiscal Years 2008 Through 2011 (OIG-13-44, February 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-44_Feb13.pdf
   DHS-OIG, Indiana’s Management of State Homeland Security Program and Urban
   Areas Security Initiative Grants Awarded During Fiscal Years 2008-2011 (OIG-13-45,
   February 2013). http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-45_Feb13.pdf
   DHS-OIG, Mississippi’s Management of State Homeland Security Program Grants
   Awarded During Fiscal Years 2008 Through 2010, (OIG-13-72, April 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-72_Apr13.pdf
   DHS-OIG, North Carolina’s Management of Homeland Security Program Grants
   Awarded During Fiscal Years 2008 Through 2010 (OIG-13-74, April 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-74_Apr13.pdf
   DHS-OIG, FEMA Public Assistance Grant Funds Awarded to City of Atascadero,
   California (DS-12-07, March 2012).
   http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-12-07_Mar12.pdf
   DHS-OIG, FEMA Public Assistance Grant Funds Awarded to Paso Robles Joint
   Unified School District, California (DS-12-03, February 2012).
   http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-12-03_Feb12.pdf




www.oig.dhs.gov                               29                                      OIG-14-17
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   DHS-OIG, FEMA Public Assistance Grant Program Funds Awarded to City of 

   Milwaukee, Wisconsin (DD-12-14, June 2012). 

   http://www.oig.dhs.gov/assets/GrantReports/OIG_DD-12-14_Jun12.pdf
   DHS-OIG, FEMA Public Assistance Grant Funds Awarded to Ochsner Clinic

   Foundation, New Orleans, Louisiana (DD-12-15, June 2012).

   http://www.oig.dhs.gov/assets/GrantReports/OIG_DD-12-15_Jun12.pdf
   DHS-OIG, FEMA’s Decisions to Replace Rather than Repair Buildings at the University
   of Iowa (DD-12-17, June 2012).
   http://www.oig.dhs.gov/assets/GrantReports/OIG_DD-12-17_Jun12.pdf
   DHS-OIG, Regional Transit Authority Needs To Insure Equipment or Forgo $62 Million
   in FEMA Public Assistance Funds, New Orleans, Louisiana (DD-13-01, November
   2012). http://www.oig.dhs.gov/assets/GrantReports/2013/OIG_DD-13­
   01_Nov12.pdf
   DHS-OIG, FEMA Improperly Applied the 50 Percent Rule in Its Decision To Pay for the
   Replacement of the Martinsville High School, Martinsville, Illinois (DD-13-04, January
   2013). http://www.oig.dhs.gov/assets/GrantReports/2013/OIG_DD-13-04_Jan13.pdf
   DHS-OIG, FEMA Should Recover $8.5 Million of Public Assistance Grant Funds
   Awarded to the City of Gulfport, Mississippi, for Debris Removal and Emergency
   Protective Measures – Hurricane Katrina (DA-13-10, February 2013).
   http://www.oig.dhs.gov/assets/GrantReports/2013/OIG_DA-13-10_Feb13.pdf
   DHS-OIG, FEMA Region VI Should Ensure the Cost Effectiveness of Texas Hazard
   Mitigation Grant Projects (DD-13-10, May 2013).
   http://www.oig.dhs.gov/assets/GrantReports/2013/OIG_DD-13-10_May13.pdf
   DHS-OIG, Capping Report: FY 2012 FEMA Public Assistance and Hazard Mitigation
   Grant and Subgrant Audits (OIG-13-90, May 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-90_May13.pdf
   DHS-OIG, Unneeded Funding and Management Challenges Associated with the
   FEMA Grant Awarded to Los Angeles County, California: Third Interim Report (DS-13­
   10, June 2013). http://www.oig.dhs.gov/assets/GrantReports/2013/OIG_DS-13­
   10_Jun13.pdf

Employee Accountability and Integrity Challenges

   DHS-OIG, Semi-Annual Report to the Congress, 10/01/2011 – 03/31/2012
   http://www.oig.dhs.gov/assets/SAR/OIG_SAR_Oct11_Mar12.pdf
   DHS-OIG, Semi-Annual Report to the Congress, 04/01/2012 – 09/30/2012
   http://www.oig.dhs.gov/assets/SAR/OIG_SAR_Apr01_Sep12.pdf
   DHS-OIG, Semi-Annual Report to the Congress, 10/01/2012 – 03/31/2013
   http://www.oig.dhs.gov/assets/SAR/OIG_SAR_Oct12_Mar13.pdf




www.oig.dhs.gov                               30                                       OIG-14-17
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Infrastructure Protection Challenges

   DHS-OIG, Effectiveness of the Infrastructure Security Compliance Division’s
   Management Practices to Implement the Chemical Facility Anti-Terrorism Standards
   Program (OIG-13-55, March 2013).
   http://www.oig.dhs.gov/assets/Mgmt/2013/OIG_13-55_Mar13.pdf




www.oig.dhs.gov                             31                                    OIG-14-17
                  m    .
                           ,II
                                 .
                                 .
                                     OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


Appendix B
Management Comments to the Draft Report
                                                                                    U.S. Dq::mrtment cf' Homeland Security
                                                                                    Washington, DC 20518




                                                   December 9, 2013

           Charles K. Edwards
           Deputy Inspector General
           Office of Inspector General
           U.S. Department of Homeland Security
           245 Murray Lane SW, Build ing 410
           Washington, OC 20528

           Re: 010 Draft Rep01t: "Major Management and Performance Challenges Faci ng the
               Department of Homeland Security" (Project No. 13-1 45-AUD-NONE)

           Dear Mr. Edwards:

           't'hank you for the opportunity to review and comment on this draft report. The U.S. Department
           of Homeland Security (DHS) appreciates having the Office of Inspector General's (OIG's)
           perspective on the most serious management and performance challenges fadng the Dt:partment.

           DHS is pleased to note OIG's acknowledgement that "the Department has taken signifi cant steps
           to create a unified and integrated organi7.ation that will enhance its pcrfonnancc by focusing on
           accountability, efficiency, transparency, and leadership development." DHS is committed to
           strengthening and building upon existing capabilities, enhancing partnerships across all levels of
           government and with the private sector, streamlining operations, and increasing efficiencies
           with in its five key mission areas: (1) preventing ten-orism and enhancing security, (2) securing
           and managing our borders, (3) enforcing and administering our immigration laws, (4)
           safeguarding and securing cyberspace, and (5) ensuring resilience to disasters.

           DHS missions arc complex and highly diverse, necessitating continuous and sustained
           management attention in order to succeed, while improving the efficiency and effectiveness of its
           many programs and operations. For example, to support the mission of safeguarding and
           securing cyberspace, the Department has continued to strengthen both the monitoring of insider
           threats and its assessments to prevent loss, theft, or destruction of mission-critical data. DHS
           appreciates the insights 0 10 provides in suppott of these mission areas. The fo llowing
           summarizes speci fi c successes and accomplishments in res[XJn ~e to the OK1's reported
           challenges areas.

           Challenge # 1: DHS Operations fmegration

           The Department' s commitment to strengthening and integrating all 22 Components to become
           "One DHS" and developing joint requirements is clearly demonstrated through Integrated
           Investment Life Cycle Management (IILCM). Once implemented, IILCM wi ll integrate all
           phases of the $60-billion budget and investment management process, providing critical linkages
           between strategy, capabilities and requirements analysis, programming and budgeting, and




www.oig.dhs.gov                                                32                                                            OIG-14-17
                  m     .
                            .II
                              .
                                  .
                                      OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




           investment oversight. This integrated approach uses portfolio management to eliminate any
           unnecessary redundancy of requirements, includes executive leadership from across the
           Department, and mandates close coordination between Components assigned to specifi c
           portfolios. Instituting this framework will result in cost-effective resource distribution that is
           aligned to the Departm~::nt 's strategic goals.

           Another example of DHS 's commitment to developingjoint requirements is illustrated through
           its efforts to achieve interoperability in the wireless communications <tremt. C:hartereJ in April
           2012, the Joint Wireless Management Office serves as a central collaboration entity and is
           developing the requirements and architecture framework for combining disparate
           communications systems. Under this framework, a DHS-wide C01mnunication Interoperability
           Plan, which will contribute to integration and improve mission effectiveness, is being developed
           in partnership with Component representatives.

           Challenge #2: Acquisiri011 Management

           The DHS Office of Program Accountability and Risk Management (PARM) is responsible for
           the Department's central oversight of acqui sition program management ami is responsible for
           managing program governance, program support, and acquisition program management
           policy. ln addition, PARM assesses the health of major acquisitions and works with
           Components to build program management expertise.

           PARM, in conjunction with Component executives, implemented a continuous program review
           process under a tiered governance model to increase the Department's ability to monitor program
           execution. In addi tion to convening 136 Acquisition Review Boards (ARBs) since 2009, PARM
           has established 13 Executive Steering Committees to ensure that Component Acquisition
           Executives are engaged to support programs and mitigate risks between formal acquisition
           reviews by the ARBs. Since PARM was established, its effective oversight has resulted in 249
           Acquisition Decision Memoranda, 3 canceled major acquisition programs, 8 paused programs,
           and the removal of program managers when necessary.

           P ARM has also taken actions over the last 2 years to improve decision making and provide better
           insight on the health of 123 major acquisitions listed on the Major Acquisition Oversight List.
           For example, PARM developed standardized acquisition scorecards to evaluate program
           re<tJ iness to pmceeJ through the acquisitionlifecycle. The scorecards leverage best practices
           and U.S. Government Accountability Office criteria to assess the quality and completeness of
           acquisition program documentation, using a transparent and repeatable process. In the past 18
           months, all new program s have completed required acquisition Jocument<ttion.

           Challe11~e   113: Financial Management

           As the OIG report acknowledges, DIIS eliminated its remaining audit quali fication and has
           earned its tirst-ever, unmodified opinion on all five financial statements. This means that the
           balances presented in all our financial statements are materially correct This achievement



                                                             2




www.oig.dhs.gov                                                  33                                             OIG-14-17
                  m    .
                           Jl
                                .
                                .
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           demonstrates DHS 's sustained financial management progress and commitment to
           accountability, transparency, and stewardship of taxpayer dollars.

           The entire DHS financial management community has made great strides year after year, earning
           the Department the unmodified opinion. For example, the U.S. Coast Guard made tremendous
           progress in FY 2013 and was able to remediate their general propetty, plant, and equipment line
           item on the Dalance Sheet. In addition, the Transportation Security Administration (TSA)
           successfully remediated its two remaining significant deficiencies during FY 2013.

           DRS's eff01ts are focused on continuing to reduce m~ terial weaknesses and significant
           deficiencies in internal controls over financial reporting. for 2 consecutive years, DHS was able
           to provide reasonable assurance that our internal controls over financial reporting (lCOFR) were
           operating effectively. The Department will continue to work on the four remaining material
           weaknesses identified in the Secretary's Assurance Statement to achieve our goal of ohtaining a
           clean opinion on the lCOFR audit by FY 2016.

           Key to the Department's continued progress toward sound linam:ial management and internal
           controls is the ability of the Components to produce consistent, reliable, and timely financial
           data. DHS has taken significant steps to modernize Component financial systems where needed,
           implement a mmmon line Df accounting, and maintain data quality standards to sustain audit
           success. Complementing this effort, DliS continues to develop a business intelligence solution
           to collect and aggregate data from Component systems to report Department-wide fi nancial
           information and to ensure that DHS senior leadership and other stakeholders, including
           Congress, have current, accurate, and useful financial information to support decision mak ing
           and oversight of the Homeland Security missions.

           T he progress made in financ ial management at DHS is due to the hard work of dedicated
           employees at the DHS Office of the Chief rinancial Officer and Components across the
           Department. Working together as One DHS, the financial management community has laid a
           foundation of sound business processes and standards that will sustain our successes for years to
           come.

           Ch allenge #4: IT Management and Cybersecurity

           As noted by OIG, the Depnrtment has made progress in implementing effective disaster recovery
           capabilities at its enterprise data centers. However, DHS is concemed that OIG did not consider
           all existing lnfonnation Technology (IT) disaster recovery and contingency planning activities,
           given that these capabilities have been proven during recent disaster events. The Office of the
           Chief lnfonnation Officer (OCIO), in cooperation with the Otlice of Operations Coordination
           and Planning (OPS), established continuously operable IT services, a pennanent IT support team
           at its altemate site, and a well-establ ished Emergency Response Group with detailed and
           documented procedures to activate altemote systems. OCIO is acquiring services to implement
           automated monitoring capabilities of mission-essential systems, and is also coordinating with
           OPS to update the business impact analysis ofOC IO's mission-essential function. Further,
           OClO is consolidating the information from its extensive disaster recovery planning efforts into


                                                           3




www.oig.dhs.gov                                                34                                              OIG-14-17
                  m   .
                          .II
                            .
                                .
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           a single IT Disaster Recovery Plan for DHS headquarters. Lastly, OCIO has either completed
           the actions recommended in OIG's repoti or is in the process of implementing corrective
           measures.

           DHS agrees that Components have made progress to address insider threats. Specifically, TSA's
           Infonnation Assurance Division implemented a training plan that is routinely used in Insider
           Threat Assessments to inform and educate after auditing insider activity at airports. TSA also
           implemented insider threat monitoring capabil ities to TSA-wntrolleu Secret and Top Secret
           networks and established the Classified Security Operations Center. This Center employs
           analysts and forensics profess ionals focused on detecting insider activity in networks holding
           TSA' s most sensitive data.

           Further, U.S. Citizenship and Immigration Services has made significant progress to address
           OIG's January 2011 recommendations to strengthen the Department's security posture against
           malicious insider threats. As o f October 201 3, l G of the 18 recommendations have been
           implemented and closed.

           In September 2013, 010 released its report reganli ng the effectiveness of DHS's use of social
           media to facilitate infonnation sharing and enhance m ission operations. The Department
           disagreed with UlG's recommendation to require Components to develop and implement social
           media policies-existing policies already provide guidance for using social media. Specifically,
           Components are required to complete a fom1 describing the operational use of social media,
           establish Rules of Behavior for such use, and provide the appropriate training. DHS also noted
           that it has a list of approved social media accounts for public affairs purposes as well as a DHS-
           wide list for other purposes.

           Challenge f:/.5: Tr·ansportation Security

           TSA continues to work closely with industry trade organizations and transportation security
           partners to ensure vital information is shared to increase security and mitigate transportation
           vulnerabilities. TSA established a policy requiring comprehensive plans for all acquisition
           programs. It continues working to strengthen existing strategic plans for security programs and
           continues to evaluate security training programs as well as procedures and programs to increase
           transportation security.

           TSA has taken actions to address OIG's recommendations to improve the efficiency and
           effectiveness of its vetting systems by developing a fully integrated and scalable enterprise
           solution for the enrollment, screening, and credentia1ing o f transportation workers. With respect
           to the Aviation Channeling Services Provider audit, TSA developed lessons learned and
           established a policy requiring comprehensive plans fo r all projects.

           To improve the Screening of Passengers by Observation Techniques program, TSA has
           completed and OIG has closed out five out of the six recommendations focused on enhancing the
           efficiency and effectiveness of its behavior detection and analysis capabilities. TSA has
           devt:lopt!<l an<l implemented a training plan, a Behavior Detection and Analysis (BDA)


                                                            4




www.oig.dhs.gov                                                 35                                              OIG-14-17
                  n              OFFICE OF INSPECTOR GENERAL
                  ~                    Department of Homeland Security




           communications plan, and deployed multiple quality assurance contro ls to include a pertormancc
           metrics plan to regularly assess program perfonnance and ensure that Behavior Detection
           Officers are used in a cost-effective maluler. TSA also has an approved Strategic Plun for BDA,
           which has been submitted to OlG for consideration to close OIG's final outstanding open
           recommendation.

           Challen~:e   #6: Border Security

           DHS continues to stn:ng then its approach to address the challenges of illegal entry into the
           United States through a strategy of enhanced intelligence; coordinated operations w ith federal,
           state, local, tribal, and international partners; and the ability to respond to changing thrcnts. For
           ex.ample, U.S. Customs and Border Protectio n's (CBP"s) U.S. Border Patrol (USBP) leverages
           infonnation sharing, collaboration, and rapid response to secure the ~ ation 's borders against all
           types of illegal entries in a manner that is risk based, outcome focused, and prioritizes
           capabilities against the highest threats.

           USBP co ntinues to expand its use of the Unified Command, providing a fmum for border
           security partners to share information, integrate resources, and coordinate operations. CBP
           continues to evolve its network to max.imize a "whole of government approach" when it comes
           to border security. These initiatives aim to identifY and distUpt transnational criminal
           organizations through collaborative law entorcement etlorts, allowing USBP and its partners to
           interdict threats against national security and develop intelligence to mitigate future threats.
           During FY 2013, these efforts have resulted in the apprehension o f over 3R8,000 indi vid uals a nd
           the seizure of almost 2.3 million pounds of narcotics, 570 firearms, and $8.5 million in currency.

           Clza/lenge #7: Grallfs Management

           l11e Federal Emergency Management Agency (FEMA} continues to develop and implement an
           integrated natio nal preparedness system (NPS) to achieve the capabilities and targets established
           in the National Preparedness Goal. The Goal defines the 3 1 core capabilities necessary to
           prepare for the threats and hazards that pose the grcntcst risk to the security of the Nation and
           provides concrete statements of the Nation's requirements for each core capability. 'J he Nl1 !:i
           identifies and assesses risks (threats, vulnerabi li ties, consequences), determines the capabilities
           needed to add ress these risks, assesses required capability levels, and provides an approach to
           planning, building, and sustaining these capabilities.

           DHS is continuing work o n documenting policies, standard operating procedures, anu prm:esst:s
           to ensure open competition, prevent 1\nti-Deticiency Act violations, and comply with
           congressional notification requirements. FEMA's Office of the Chief Financial Officer is
           coordinating closely w ith starr in the DHS Oflict: o f the C:hief Financial Officer to address
           corrective actions resulting fro m the FY 20 12 audit ofDHS 's Financial Statement nnd Oversight
           of Internal Controls. A number of milestones with positive impacts on a variety of problems
           with disaster gmnt management and accounting are being addressed. Financial repon ing by
           grantees is being examined to find opportunities fo r improvements and training. DHS is making
           progress in strengthening internal control procedures related to grant accruals, payment system


                                                              5




www.oig.dhs.gov                                                   36                                               OIG-14-17
                  m   .
                          .II
                            .
                                .
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           reconciliations, and audit resolution and compliance. Scheduled work is underway to add
           en.h ancements to grant information systems, allowing collection of project-level data, and
           regional teams are being established in an etlort to resolve ineligible and unsupported costs.

           In April 2012, FEMA's Public Assistance (PA) Division published the Public Assistance
           Program Pocket Guide (the Pocket Guide). The Pocket Guide provides direction on a consistent
           approach to delivering the PA Program. It desctibes the fundamentals to be followed in PA field
           operations nationally in order tu streamline proce~~es for more efficient program delivery and
           provides detai led instructions on critical elements of the Project Worksheet development
           process. ln the last year, PA trained close to 2,300 FEMA, state, and local personnel on
           consistent implementation of the PA program nationally.

           Cftallmge #8: Employee Accountability a11d l11tegrity

           CR P h a~ made signi ficanl advaru.;emenls in battling conuption and misconduct internally. CBP
           conducts background investigations and polygraph examinations of all applicants tor law
           enforcement positions as a way to detect possible issues before an applicant becomes an
           employee.

           Collaboration and information sharing are critical to the effective investigation into allegations of
           comtption and serious misconduct by DHS employees. As all uded to in OK i's dmfl report, OlG
           and CBP have a Memorandum of Understanding (MOU) that allows CBP to provide
           investigative support upon request to OIG on CHP-related misconduct cases. Similarly, CBP has
           another MOU with U.S. Immigration and Customs Enforcement (ICE) that allows CBP to
           partner with ICE to conduct investigations on CBP-related misconduct cases. OJG, ICE, and
           CBP arc working together as partners to investigate these allegations and promote workforce
           integrity.

           Maintaining a culture of integrity must be a priority for every single person working at CBP. It
           must be an underlying fo cus for every team, program, and office. CBP is currently developing
           an Agency-level integrity strategy to address factors involved with possible corruption or other
           misconduct. CDP's Office of Internal Affairs (JA) cannot be alone in the effort to ensure the
           integJ.ity of the workforce. For example, the USBP Office of Field Operations and IA have
           integrated staff that evaluates integrity trends and pattems through analysis of data anomalies at
           ports of entry and checkpoints. Other efforts inc! ude cross-organizational representation in
           integrity-focused committees.

           Clwllenge #9: Infi·astructure Protectiou

           Over the past 18 months, significant progress has been made in advancing the Chemical Facility
           Anti-Terrorism Standards (CFATS) program. This includes implementation of a revised Site
           Security Plan (SSP) review process that has dramatically increased the pace of SSP reviews,
           additional training tor inspectors on updated inspection protocols, and the documentation of a
           number of critical processes through Standard Operating Procedures. As of December 2, 20 13,
           these erforl~ have enahled the Department to authorize more than 900 secutity plans, conduct


                                                            6




www.oig.dhs.gov                                                 37                                                 OIG-14-17
                    m     .
                              A
                                  .
                                  .
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




           nearly 600 Authorization inspections, and approve nearly 400 security plans. T he Department is
           now on pace to authorize and inspect as many as 80 security plans and approve between 30 and
           60 security plans per month, and is continuing to explore ways to further im;rease perfonnance.

           Finally, while there is no indication that the incident was a terrorist attack, the Department agrees
           that the recent explosion at the West, Texas, chemical facili ty reinforces the need for appropriate
           security at high-risk chemical facil ities. Any facility that manufactures, uses, stores, or
           distributes cetiain chemicals above a specified quantity listed in the CFATS Appendix A has 60
           days to complete and submit a Top-Screen to DHS. The West, Texas, facility did not submit a
           Top-Screen. DIIS is increasing efforts to identify other facilities that may have simi larly fai led
           to submit l"op-Screens. These etrorts include exchanging lists of facil ities with appropriate
           federal entities and state officials and perfonning cross-walks of those lists to help identify
           potentially non-compliant fat: ilities. This is part of DHS's commitment to the successful
           implementation ofExccutivc Order (EO) 13650 on Improving Chemical facil ity Safety and
           Security. As part of its efforts to enhance federal agency coordination and infom1ation sharing
           as part of the EO, DHS, along with the Department of Labor and the Envirol111lental Protection
           Agency, is co-chairing a working group focused on implementation of the EO.

           Again, thank you for the opportunity to review and comment on this draft report. Technical
           comments were previously provided under separate t:over. A short summary of the challenges
           and management response to the issues identified will be included in the Department's fY 20 13
           Annual Financial Report 1, as required by Jaw. Please feel free to contact me if you have any
           questions. We look (()rward to working with you in the future.

                                                      Sincerely,


                                                      \JL~~.__
                                                      ; il n H. Crumpacker
                                                      Director
                                                      Departmental GAO-OJG Liaison Office




           1
               http://www.dhs.gov/performance-accoumability


                                                                   7




www.oig.dhs.gov                                                        38                                          OIG-14-17
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix C
Report Distribution
Department of Homeland Security

Acting Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Under Secretary for Management
Chief Financial Officer
Chief Information Officer
Chief Security Officer
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  39                     OIG-14-17
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
